No. 21-____
IN THE

Supreme Court of the United States
JASON SELF AND THOMAS W. LINDQUIST,
Petitioners,
v.
CHER-AE HEIGHTS INDIAN COMMUNITY
OF THE TRINIDAD RANCHERIA,
Respondent.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 5,137 words and complies with the
word limitation established by Rule 33.1(g)(i) of the Rules of this Court.
Dated: September 27, 2021

/s/ Thomas H. Dupree Jr.
Thomas H. Dupree Jr.

